App. 1
NOT RECOMMENDED FOR
FULL-TEXT PUBLICATION
File Name: 19a0529n.06
No. 18-6333
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES
OF AMERICA,

)
)
)
Plaintiff-Appellee,
)
v.
)
)
KENDALL R. CARTER,
)
Defendant-Appellant. )

ON APPEAL FROM
THE UNITED
STATES DISTRICT
COURT FOR THE
MIDDLE DISTRICT
OF TENNESSEE
(Filed Oct. 16, 2019)

Before: SUTTON, KETHLEDGE, and STRANCH,
Circuit Judges.
KETHLEDGE, Circuit Judge. Kendall Carter appeals the district court’s denial of his motion for a
Franks hearing and his motion to suppress evidence of
child pornography and interstate extortion. We reject
his arguments and affirm.
During the summer of 2014, Carter—then a 20
year-old living in his parents’ basement in Milton, Tennessee—befriended a handful of 13 to 16 year-old girls
on an instant messaging app called Kik. After he had
done so, Carter used multiple online personas to coerce
the girls into sending him nude photos. Then Carter
threatened to post the photos online unless the girls
sent him even more sexually explicit images.

App. 2
In October 2014, one of the girls, a 13 year-old in
North Dakota, reported that someone was sexually exploiting her on Kik. Investigators looked at her chat
logs and found two usernames in chat sessions where
she had been coerced into sending sexually explicit
photos and videos. They sent Kik an administrative
subpoena for information about those usernames and
about two chat sessions that took place on September
14, 2014. Kik’ s reply showed that the usernames had
been created several months earlier and had been active on an iPhone and iPad. Kik did not have IP addresses—which are numerical labels that can identify
a user’s physical location in a computer network—dating back to September 14. (The company retained IP
information for just 30 days.) But Kik had that information for hundreds of more recent sessions, when
both usernames accessed Kik from the same IP address in Milton, Tennessee. That IP address, a local
internet-service provider confirmed, was associated
with a residential address in Milton and with a specific
subscriber named Kendall Carter.
The investigators in North Dakota handed the
case off to Detective Patty Higgins, a sheriff ’s deputy
with the Rutherford County (Tennessee) Sheriff ’s Office. Higgins applied for a search warrant and signed
an affidavit that stated, among other things, that investigators had linked the Kik usernames in the September 14 chat sessions to an IP address, and linked
the IP address to Carter. The warrant itself sought evidence of sexual exploitation of minors, including an

App. 3
iPhone and an iPad “used to facilitate the aforementioned criminal activity[.]” R. 46-1 at Page ID 404.
Higgins and another officer went to Carter’s
house, where Carter’s father invited them in. After a
short conversation with Carter’s parents, the officers
said they needed to see the iPhone and iPad that belonged to the Carters’ son Kendall. The Carters asked
to see a warrant, so the officers showed it to them. Kendall Carter then gave the officers his iPhone, iPad, and
passwords to both devices.
Investigators later searched Carter’s iPhone and
iPad, where they found hundreds of images of child
pornography. They also found Kik chat sessions in
which Carter had coerced multiple girls into sending
him sexually explicit images and videos.
Federal prosecutors charged Carter with a total of
15 counts of production and attempted production of
child pornography, see 18 U.S.C. § 2251(a), possession
of child pornography, see id. § 2252A(a)(5)(B), and use
of interstate communications to commit extortion, see
id. § 875(d). Carter later moved for a Franks hearing
concerning what he alleged were false statements in
Higgins’s affidavit. He also moved to suppress the evidence seized during the search of his house. The district court denied both motions.
Carter thereafter conditionally pleaded guilty to
two counts of production of child pornography, two
counts of extortion, and one count of possession of child
pornography, preserving the right to appeal the denial
of his motion to suppress. Before his sentencing

App. 4
hearing, however, Carter filed another motion to suppress, alleging that the investigators’ use of an administrative subpoena to collect his IP address violated the
Fourth Amendment as interpreted in Carpenter v.
United States, 138 S. Ct. 2206 (2018). The district court
again denied the motion, and sentenced Carter to 30
years in prison.
Carter now appeals the district court’s denial of
his motion for a Franks hearing and his motions to suppress. For these denials, we review legal questions de
novo and factual findings for clear error. United States
v. Poulsen, 655 F.3d 492, 503 (6th Cir. 2011).
To obtain a Franks hearing, a defendant must
make a substantial preliminary showing of two things:
first, that the affidavit includes a false statement that
was made “knowingly and intentionally, or with reckless disregard for the truth”; second, that the allegedly
false statement is “necessary to the finding of probable
cause.” See United States v. Mastromatteo, 538 F.3d
535, 545 (6th Cir. 2008). In the context of child pornography, an affidavit that connects a defendant, an offending username, and the defendant’s residence is
enough to establish probable cause for a search. See
United States v. Elbe, 774 F.3d 885, 890 (6th Cir. 2014).
Carter says that Higgins’s affidavit falsely linked the
September 14 chat sessions with his IP address, because Kik in fact did not have IP information for those
sessions. The rest of the affidavit, however, shows that
someone used two usernames to coerce a child to send
sexually explicit images, and that those usernames accessed Kik from an IP address associated with Carter’s

App. 5
residence. That connection—between Carter, his residence, and the offending usernames—is enough to
show that there was a “fair probability” that evidence
of a crime would be found at Carter’s house. See id. at
888. The affidavit’s allegedly false statement was
therefore immaterial to the issue of probable cause.
Hence the district court properly denied Carter’s motion for a Franks hearing. See Mastromatteo, 538 F.3d
at 545.
The same is true as to the motions to suppress.
Carter argues that the search warrant itself was invalid in several respects. First, he contends that the warrant left the officers free to take any iPhones and iPads
they wanted, which he says violates the Fourth
Amendment requirement that a warrant describe
“with particularity” the things law enforcement may
seize. United States v. Willoughby, 742 F.3d 229, 233
(6th Cir. 2014). But a warrant that constrains a search
to evidence of a specific crime satisfies the particularity requirement. United States v. Castro, 881 F.3d 961,
965 (6th Cir. 2018). And here the warrant restricted
the search to an iPhone and an iPad “used to facilitate
the aforementioned criminal activity[.]” R. 46-1 at Page
ID 404. Rather than leaving the officers without direction, the warrant told them enough to “guide and control [their] judgment in selecting what to take[.]”
Willoughby, 742 F.3d at 233.
Second, Carter says that the warrant was overbroad, because it might have allowed officers to seize
“clearly innocuous” items. But the remedy for an overbroad warrant is to suppress the evidence taken

App. 6
specifically under the overbroad search term. United
States v. Richards, 659 F.3d 527, 537 (6th Cir. 2011).
Carter points to none here, so his argument fails.
Third, Carter contends that the warrant was invalid because, he says, Tennessee law required Higgins to
obtain a district attorney’s approval before she applied
for it. But the Tennessee Supreme Court has since held
otherwise. See State v. Miller, 575 S.W.3d 807, 813
(Tenn. 2019). Nor do we suppress evidence based on violations of state law. See United States v. Beals, 698
F.3d 248, 263 (6th Cir. 2012). Hence Carter’s contention
fails.
Carter also argues that the search was improperly
executed for several reasons. First, he says that officers
violated the “knock-and-announce” rule. See 18 U.S.C.
§ 3109. But that rule applies only when officers enter
by force; here, they were invited in. Id. Second, he says
the officers violated the Fourth Amendment because
they did not show the search warrant until asked. But
here nothing required the officers to present the warrant any sooner than they did. See Baranski v. Fifteen
Unknown Agents of the Bureau of Alcohol, Tobacco &
Firearms, 452 F.3d 433, 442-43 (6th Cir. 2006) (en
banc). Third, Carter says that his federal prosecution
effectively precluded him from challenging the search
on state-law grounds. But he has not identified any aspect of the search that violated state (or federal) law.
Finally, Carter argues that the investigators violated the Fourth Amendment when they obtained his
IP address by an administrative subpoena rather than

App. 7
by a search warrant after a showing of probable cause.
His argument relies upon the Supreme Court’s decision in United States v. Carpenter, 138 S. Ct. 2206
(2018), which concerned cell-site locational data, not IP
addresses. But we have no need to consider whether to
extend Carpenter’s holding to IP addresses here. For
our court has already held that the good-faith exception to the exclusionary rule applies to searches that
complied with the Stored Communications Act and
then-binding case law. See United States v. Carpenter,
926 F.3d 313, 318 (6th Cir. 2019).
The district court’s judgment is affirmed.

App. 8
UNITED STATES DISTRICT COURT
Middle District of Tennessee
UNITED STATES
OF AMERICA
v.
Kendall R. Carter

)
)
)
)
)
)
)
)
)

JUDGMENT IN A
CRIMINAL CASE
Case Number:
3:15CR00162-001
USM Number: 22995-075
Peter J. Strianse &
Timothy Neil O’Connor
Defendant’s Attorney

THE DEFENDANT:


pleaded guilty to count(s) 4, 6, 10, 14, and 15
of the Superseding Indictment

⬜

pleaded nolo contendere to count(s)
which was accepted by the court.

⬜

was found guilty on count(s)
after a plea of not guity.

The defendant is adjudicated guilty of these offenses:
Title &
Section
18 U.S.C.
§ 2251(a)
18 U.S.C.
§ 875(d)
18 U.S.C.
§ 2251(a)

Offense
Nature of Offense Ended
Count
Production of
6/22/2014
4
Child Pornography
Extortion
6/23/2014
6
Production of
Child Pornography

9/17/2014

10

The defendant is sentenced as provided in pages 2
through 8 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.

App. 9
⬜

The defendant has been found not guilty on count(s)



Count(s) 1-3, 5, 7-9, 11-13
⬜ is  are dismissed on the motion of the
United States.

It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the
court and United States attorney of material changes
in economic circumstances.
12/7/2018
Date of Imposition of Judgment
Waverly D. Crenshaw, Jr.
Signature of Judge
Waverly D. Crenshaw, Jr.,
Chief U.S. District Judge
Name and Title of Judge
12/12/2018
Date
ADDITIONAL COUNTS OF CONVICTION
Title &
Section
18 U.S.C.
§ 875(d)
18 U.S.C.
§ 2252A(a)(5)

Offense
Nature of Offense Ended
Count
Extortion
10/1/2014
14
Possession of
Child Pornography

11/18/2014

15

App. 10

IMPRISONMENT
The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned for
a total term of:
360 months as to each of counts 4 and 10; 24
months as to each of counts 6 and 14; and 240
months as to count 15; all counts to run concurrently with each other.


The court makes the following recommendations
to the Bureau of Prisons:
1. Access to educational programs, including online
access, to complete degree; 2. Sex Offender Management Program; 3. Sex Offender Treatment
Program-Nonresidential; 4. allow Defendant to
volunteer as a teacher; 5. Sentence Length PSF be
waived and management variable to classify Defendant as low safety risk; 6. placement at FCISeagoville



The defendant is remanded to the custody of the
United States Marshal.

⬜

The defendant shall surrender to the United
States Marshal for this district:

⬜

⬜

at

⬜ a.m. ⬜ p.m. on

⬜

as notified by the United States Marshal.

.

The defendant shall surrender for service of sentence at the institution designated by the Bureau
of Prisons:
⬜

before 2 p.m. on

.

App. 11
⬜

as notified by the United States Marshal.

⬜

as notified by the Probation or Pretrial Services Office.
RETURN

I have executed this judgment as follows:

at

Defendant delivered on
to
, with a certified copy of this judgment.
UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
LIFE as to each of counts 4, 10, and 15 and 1 year,
as to each of counts 6 and 14; all counts to run concurrently with each other.
MANDATORY CONDITIONS
1.

You must not commit another federal, state or local
crime.

2.

You must not unlawfully possess a controlled substance.

App. 12
3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.


The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)

4.

⬜

You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other
statute authorizing a sentence of restitution.
(check if applicable)

5.



You must cooperate in the collection of DNA
as directed by the probation officer. (check if
applicable)

6.



You must comply with the requirements of the
Sex Offender Registration and Notification
Act (34 U.S.C. § 20901, et seq.) as directed by
the probation officer, the Bureau of Prisons, or
any state sex offender registration agency in
the location where you reside, work, are a student, or were convicted of a qualifying offense.
(check if applicable)

7.

⬜

You must participate in an approved program
for domestic violence. (check if applicable)

You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.

App. 13
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.
1.

You must report to the probation office in the federal judicial district where you are authorized to
reside within 72 hours of your release from imprisonment, unless the probation officer instructs you
to report to a different probation office or within a
different time frame.

2.

After initially reporting to the probation office,
you will receive instructions from the court or the
probation officer about how and when you must
report to the probation officer, and you must report to the probation officer as instructed.

3.

You must not knowingly leave the federal judicial
district where you are authorized to reside without first getting permission from the court or the
probation officer.

4.

You must answer truthfully the questions asked
by your probation officer.

5.

You must live at a place approved by the probation
officer. If you plan to change where you live or anything about your living arrangements (such as
the people you live with), you must notify the probation officer at least 10 days before the change. If
notifying the probation officer in advance is not

App. 14
possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours
of becoming aware of a change or expected change.
6.

You must allow the probation officer to visit you
at any time at your home or elsewhere, and you
must permit the probation officer to take any
items prohibited by the conditions of your supervision that he or she observes in plain view.

7.

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you
do not have full-time employment you must try to
find full-time employment, unless the probation
officer excuses you from doing so. If you plan to
change where you work or anything about your
work (such as your position or your job responsibilities), you must notify the probation officer at
least 10 days before the change. If notifying the
probation officer at least 10 days in advance is not
possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours
of becoming aware of a change or expected change.

8.

You must not communicate or interact with someone you know is engaged in criminal activity. If
you know someone has been convicted of a felony,
you must not knowingly communicate or interact
with that person without first getting the permission of the probation officer.

9.

If you are arrested or questioned by a law enforcement officer, you must notify the probation officer
within 72 hours.

App. 15
10. You must not own, possess, or have access to a
firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was designed,
or was modified for, the specific purpose of causing
bodily injury or death to another person such as
nunchakus or tasers).
11. You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12. If the probation officer determines that you pose a
risk to another person (including an organization),
the probation officer may require you to notify the
person about the risk and you must comply with
that instruction. The probation officer may contact
the person and confirm that you have notified the
person about the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature

Date

App. 16
SPECIAL CONDITIONS OF SUPERVISION
1. The defendant shall participate in a mental health
program as directed by the United States Probation
Office. The defendant shall pay all or part of the cost of
mental health treatment if the United States Probation Office determines the defendant has the financial
ability to do so or has appropriate insurance coverage
to pay for such treatment.
2. The defendant agrees to submit to a sex offender
assessment and treatment as recommended by an appropriate provider contracted per the guidelines and
procedures promulgated by the Administrative Office
of the United States Court.
3. The defendant shall register as a sex offender with
the appropriate authorities of any state in which he resides, is employed, or attends school in compliance
with 18 U.S.C. § 2250(a).
4. The defendant shall not consume any alcoholic
beverages.
5. The defendant’s residence and employment shall
be pre-approved by the U.S. Probation Office.
6. The defendant shall not associate with children
under the age of 18 nor frequent, volunteer, or work at
places where children congregate (e.g., playgrounds,
parks, malls, day-care centers or schools) unless approved by the U.S. Probation Office.
7. The defendant shall not contact the victims, A.A.,
M.K., and M.H., or the victims’ immediate families,

App. 17
directly or indirectly, either in person, or by telephone,
mail, interactive computer service, a third party, or any
other means; and the United States Probation Office
will verify compliance.
8. The defendant shall not buy, sell, exchange, possess, trade, or produce visual depictions of minors or
adults engaged in sexually explicit conduct. The defendant shall not correspond or communicate in person, by mail, telephone, or computer, with individuals
or companies offering to buy, sell, trade, exchange, or
produce visual depictions of minors or adult engaged
in sexually explicit conduct, as defined in 18 U.S.C.
§ 2256(2).
9. The defendant shall not possess or use a device capable of creating pictures or video without the prior
permission of the U.S. Probation Office.
10. The defendant shall not rent or use a storage facility without the prior permission of the U.S. Probation Office.
Computer Restrictions
11. The defendant shall not possess or use a computer
or any device with access to any “on-line computer service” at any location (including place of employment)
without the prior written approval of the United States
Probation Office. This includes any Internet service
provider, bulletin board system, or any other public or
private network or e-mail system. The defendant’s residence shall not contain any electronic devices capable

App. 18
of Internet access without prior approval of the probation officer.
12. The defendant shall consent to the U.S. Probation
Office conducting unannounced examinations of the
defendant’s computer system(s), mobile devices, and
internal/external storage devices, which may include
retrieval and copying of all memory from hardware/
software and/or removal of such system(s) for the purpose of conducting a more thorough inspection. The defendant will consent to having installed on the defendant’s
computer(s), any hardware/software to monitor computer use or prevent access to particular materials.
The defendant will further consent to periodic inspection of any such installed hardware/software to ensure
it is functioning properly. The defendant shall pay the
cost of the installation of and the continuing use of the
monitoring program if the United States Probation Office determines that the defendant has the ability to do
so.
13. The defendant shall provide the U.S. Probation Office with accurate information about the defendant’s entire computer system (hardware/software) and
internal/external storage devices; all passwords used
by the defendant; and will abide by by all rules regarding computer use and restrictions as provided by the
U.S. Probation Office.
14. The defendant shall furnish all financial records,
including, without limitation, earnings records and tax
returns, to the United States Probation Office upon request.

App. 19
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on
Sheet 6.
JVTA
Assessment Assessment* Fine Restitution
TOTALS $ 500.00 $
$
$
⬜

The determination of restitution is deferred until
. An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such determination.

⬜

The defendant shall make restitution (including
community restitution) to the following payees in
the amounts listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United
States is paid.

Name of
Payee
TOTALS

Total
Loss**
$ 0.00

Restitution
Ordered

Priority or
Percentage

$ 0.00

* Justice for Victims of Trafficking Act of 2015, Pub. L. No.
114-22.
** Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after September 13, 1994, but before April 23, 1996.

App. 20
Restitution amount ordered pursuant to plea
agreement $
⬜

The defendant must pay interest on restitution
and a fine of more than $2,500, unless the restitution or fine is paid in full before the fifteenth day
after the date of the judgment, pursuant to 18
U.S.C. § 3612(f). All of the payment options on
Sheet 6 may be subject to penalties for delinquency
and default, pursuant to 18 U.S.C. § 3612(g).

⬜

The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
⬜ the interest requirement is waived for the
⬜ fine ⬜ restitution.
⬜ the interest requirement for the ⬜ fine ⬜
restitution is modified as follows:
SCHEDULE OF PAYMENTS

Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties shall be
due as follows:
A ⬜ Lump sum payment of $
balance due
⬜ not later than

due immediately,
, or

⬜ in accordance ⬜ C, ⬜ D, or ⬜ E, or
⬜ F below; or
B  Payment to begin immediately (may be combined with ⬜ C, ⬜ D or, ⬜ F below); or

App. 21
C ⬜ Payment in
(e.g., equal, weekly, monthly, quarterly) installments of $ over a period of (e.g.,
months or years), to commence
(e.g., 30 or 60
days) after the date of this judgment; or
D ⬜ Payment in (e.g., equal, weekly, monthly, quarterly) installments of $ over a period of (e.g.,
months or years), to commence
(e.g., 30 or 60
days) after release from imprisonment to a term
of supervision; or
E ⬜ Payment during the term of supervised release
will commence within
(e.g., 30 or 60 days)
after release from imprisonment. The court will
set the payment plan based on an assessment of
the defendant’s ability to pay at that time; or
F ⬜ Special instructions regarding the payment of
criminal monetary penalties:
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of criminal monetary penalties is due during the period of imprisonment. All criminal monetary penalties, except
those payments made through the Federal Bureau of
Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.

App. 22
⬜

Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and corresponding payee, if appropriate.

⬜

The defendant shall pay the cost of prosecution.

⬜

The defendant shall pay the following court cost(s):



The defendant shall forfeit the defendant’s interest in the following property to the United States:
An iPhone 5, model A1428 (serial number:
C39JPSVJDTTN) , and an iPad
(serial number DKVHHIENDFHY).

Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) JVTA assessment, (8) penalties,
and (9) costs, including cost of prosecution and court
costs.

App. 23
No. 18-6333
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,
v.
KENDALL R. CARTER,
Defendant-Appellant.

)
)
)
)
)
)
)

ORDER
(Filed Nov. 21, 2019)

BEFORE: SUTTON, KETHLEDGE, and STRANCH,
Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original submission and decision of the case. The petition then was
circulated to the full court. No judge has requested a
vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER
OF THE COURT
Deborah S. Hunt, Clerk

